1

No.
IN THE SUPREME COURT OF THE UNITED
STATES
—0O0—

YI TAI SHAG, AKA Linda Shao
Petitioner - Appellant,
vs.
Chief Justice John G. Roberts, Jr., et. al., totally 71
parties (See LIST OF DEFENDANTS/
APPELLEES, INTERPLEADER AND
REPRESENTING COUNSEL),
Respondents - Appellees.
U.S. Attorney, Interpleader
Regarding a writ of certiorari to the U.S. Court of
Appeal, D.C. Circuit, with case number of 19-5014
to appeal from Judge Patricia Millet’s Orders of
2/5/2020 denying rehearing of its order of
11/13/2019 that summarily denied change of venue
and sua sponte confirming Judge Rudolph
Contreras’s Order of January 17, 2019 thatsua
sponte dismissed the entire case and prior orders at
U.S.D.C., for case number of l-18-cv-01233
CERTIFICATE OF SERVICE
YI TAI SHAO, ESQ. In pro per
4900 Hopyard Road, Ste. 100
Pleasanton, CA 94588-7101
Telephone: (408) 873-3888; FAX: (408) 418-4070
Email: attorneyshao@aol.com

received
JUL 1 3 2020
iupSlEcnlfpT^y

1

I, Yi Tai Shao, declare that:
I am over age of 18. My business address is at 4900 Hopyard Road, Ste. 100; Pleasanton,
CA 94588-7101. On July 2, 2020, as the representative for Shao Law Firm, PC, a juridical
person, I served the Petition for Writ of Certiorari
(By first class mail or priority mail box) I prepared the mail, affixed the prepaid envelop,
sealed the envelop and sent for first mail at the U. S. Postal Office located in Hayward,
California to the following persons:
Administration of U.S.D.C. in D.C., and Judge Rudolph Contreras and Judge Jackie Francis
(3 sets), 333 Constitution Avenue N.W., Washington DC 20001
US Court of Appeal, in D.C. Circuit, 333 Constitution Avenue NW, Washington DC 20001
5 sets mailed to the above address via priority mail flat rate medium box.
Solicitor General of the U.S.(3 sets), Room 5614, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001.
Interpleader Jessie K. Liu & Daniel F. Van Horn
Daniel P. Schaefer
555 4th Street, N.W.
Washington, D.C.20530
(202) 252-2531 Daniel.Schaefer@usdoj.gov
Chief Justice John G. Roberts, Jr.,
Associate Justice Anthony M. Kennedy, Associate Justice Clarence Thomas,
Associate Justice Ruth Bader Ginsburg, Associate Justice Stephen Beyer,
Associate Justice Samuel Alito,
Associate Justice Sonia Sotomayer,
Associate Justice Elena Kagan,
Jordan Bickell,
Jeff Atkins,
U.S. Supreme Court
r
1 Street, NW, Washington DC 20543
Together with the copy for filing in one box totally 11 stapled sets and 1 unstapled set for
filing
Judge Lucy H. Koh, USDC in San Jose, 280 South First Street, San Jose, CA 95113
Diane Feinstein, 1 Post Street, #2450; San Francisco, CA 94104
Tsan-Kuen Wang 975 Miller Avenue, Cupertino, CA 95014
David Sussman, 95 S. Market Street, Ste. 410! San Jose, CA 95113

2

US House Judiciary Committee
2138 Rayburn House
Washington, DC 20515
US Senate Judiciary Committee (or the Judiciary Committee of the Senate),
224 Dirksen Senate Office Building
Washington, DC20515
Representative Eric Swalwell,
3615 Castro Valley Blvd
Castro Valley, CA 94546
Judge J. Clifford Wallace,
Ninth Circuit
95 S. 7th Street
San Francisco, CA
Kevin L. Warnock
60 Sumner
San Francisco, CA 94116
Michael E. Barnsback, LEAD ATTORNEY
O’HAGAN MEYER, PLLC
2560 Huntington Avenue, Suite 204
Alexandra, VA 22303
(703)775-8601; Fax: (804) 403-7110
Email: mbarnsback@ohaganmever.com
For American Inns of Court, the Honorable William A. Ingram American Inn of Court, San
Francisco Bay Area American Inn of Court,
James A. Lassart, LEAD ATTORNEY
MURPHY PEARSON BRADLEY FEENEY
580 California Avenue, Ste. 1140
San Francisco, CA 94014
(415) 788-1900; Fax: (415) 393-8087
For James McManis, Michael Reedy, McManis Faulkner, LLP., Janet Everson

THE ABOVE ARE REPRESENTED BY THE FOLLOWING 3 LEAD ATTORNEYS:
Drew T. Dorner
DUANE MORRIS LLP
505 Ninth Street, NW, Suite 1000
Washington, DC 20004
(202) 776-5291;
email: dtdorner@duanemorris.com
Michael L. Fox & Sean Patterson

3

DUANE MORRIS LLP
One Market Plaza
Spear Tower, Suite 2200
San Francisco, CA 94105-1127
(415) 957-3092; Fax: (415)276-5775
On behalf of California Supreme Court as Doe No. 2 Defendant, Chief Justice Tani G.
Cantil-Sakauye as Doe 3,
California Sixth District Court of Appeal, Retired Presiding Justice Conrad Rushing,
Associate Justice Eugene Premo, Associate Justice Franklin Elia, Associate Justice
Patricia Bamattre-Manoukian, Associate Justice Adriene M. Grover as Doe No. 1
Defendant, Clerk’s Office at California Sixth District Court of Appeal, Judge Edward
Davila, , Santa Clara County Superior Court of California, Judge Patricia Lucas, Judge
Rise Pichon, Judge Mary Ann Grilli, Judge Theodore Zayner, Judge Joshua WeinStein,
Judge Maureen Folan, Judge Peter Kirwan, Commissioner Gregory Saldivar, Susan
Walker, Lisa Herrick, Rebecca Delgado, Jill Sardeson, Sarah Scofield, David Yamasaki,
Lawrence J. Serrano
COUNTY OF SANTA CLARA
Office of the County Counsel
70 W. Hedding Street, 9th FL, East Wing
San Jose, CA 95110
(408) 299-5900;
email: Javier.serrano@cco.sccgov.org
On behalf of Darryl Young, Mary L. Murphy, Department of Child Support Service, Santa
Clara County, Department of Children and Family Services, Santa Clara County, Misook
Oh,
BJ Fadem,PRO PER
111 West Saint John Street, Suite 700
San Jose, CA 95113
(408) 971-9940
John Orlando, PRO PER
1100 Lincoln Avenue, Ste. 365
San Jose, CA 95125
(408) 295-5050
Elise Mary Mitchell, PRO PER
320 S. Third Street, Ste. 102
San Jose, CA 95112
James S. Aist
ANDERSON, COE 7 KING, LLP

4

Seven St. Paul Street, Suite 1600
Baltimore, MD 21202-1653
(410) 752-1630; Fax: (410) 752-0085
Carole Tait-Starnes
Email: aist@acklaw.com
BY: Veronica S. Ascarrunx
WILSON SONSINI GOODRICH & ROSATI, PC
1700 K Street, NW, 5th Floor
Washington, DC 20006
(202) 973-8812;Fax: (202) 973-8899
Email: vascarrunz@wsgr.com
On behalf of You Tube, Inc., Google Inc.,
Max F. Maccoby
WASHINGTON GLOBAL LAW GROUP, PLLC
1701 Pennsylvania, Avenue, N.W., Ste. 200
Washington, DC 20006
(202) 248-5439; Fax: (202) 580*6559
Email: maccobv@washglobal-law.com
Thomas Cummings
POTOMAC LITIGATION
4085 Chain Bridge Road, Ste. 400
Fairfax, VA 22030
(703)345-7803 pro hac vice
On behalf of Esther Chung

I declare under penalty of perjury under the laws of the State of California that the foregoing is
♦

true and correct.
Dated: July 2, 2020

/s/
Yi Tai phao

